App. 1

APPENDIX A
THE SUPREME COURT OF WASHINGTON
No. 97880-8
Court of Appeals
Case No. 78910-4-1
[Filed: March 4, 2020]
)
)
)
)
)
)
)

HUNG DANG, M.D.,
Petitioner,
v.

WASHINGTON STATE DEPARTMENT OF )
HEALTH, MEDICAL QUALITY
)
ASSURANCE COMMISSION,
)
)
)

Respondent.
ORDER

Department II of the Court, composed of Chief
Justice Stephens and Justices Madsen, Wiggins,
Gordon McCloud, and Montoya-Lewis, considered at its
March 3, 2020, Motion Calendar whether review
should be granted pursuant to RAP 13.4(b) and
unanimously agreed that the following order be
entered.

App. 2
IT IS ORDERED:
That the petition for review is denied and the
Clerk’s motion to strike the reply to the answer to the
petition for review is granted.
' DATED at Olympia, Washington, this 4th day of
March, 2020.
For the Court
/s/
CHIEF JUSTICE

App. 3

APPENDIX B
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
DIVISION ONE
Case No. 78910-4-1
[Filed: August 19, 2019]

HUNG DANG, M.D.,
Appellant,
v.

)
)
)
)
)
)
)
)

Judicial Review Agenc}? Action of the
WASHINGTON STATE DEPARTMENT )
OF HEALTH, MEDICAL QUALITY
)
ASSURANCE COMMISSION, '
)
Respondent.

)
)

UNPUBLISHED OPINION
Schindler, J.
Hung Dang, MD appeals the
superior court order affirming the decision of the
Washington State Department of Health Medical
Quality Assurance Commission (MQAC). MQAC
concluded Dr. Dang committed unprofessional conduct

App. 4
in violation of the Uniform Disciplinary Act, chapter
18.130 RCW; ordered oversight of his license; and
imposed at $5,000 fine. We affirm the amended MQAC
decision and final order.
On Call at St. Joseph Medical Center
Dr. Hung Dang is an otolaryngologist, specializing
in the treatment of the ear, nose, andthroat (ENT). Dr.
Dang works at Group Health Cooperative1 in Tacoma.
As a condition of his employment with Group Health,
Dr. Dang maintains staff privileges and works as an
on-call emergency ENT specialist at St. Joseph Medical
Center in Tacoma. St. Joseph is one of several hospitals
in the CHI Franciscan Health System and is a level II
trauma center. The CHI Franciscan Health Sj^stem is
a nonprofit corporation dedicated to providing
healthcare consistent with Catholic Health Initiatives.
The other hospitals include St. Francis Hospital in
Federal Way, St. Clare Hospital in Lakewood, St.
Anthony Hospital in Gig Harbor, and St. Elizabeth
Hospital in Enumclaw.
Emergency Medical Treatment and Labor Act
The Emergency Medical Treatment and Labor Act
(EMTALA), 42 U.S.C. § 1395dd, requires hospitals to
treat patients that need emergency care. The purpose
of EMTALA is to ensure that individuals receive
adequate emergency medical care regardless of ability
to pay. Jackson v. E. Bay Hosp.. 246 F.3d 1248, 1254
(9th Cir. 2001). Under EMTALA, a hospital must

We note Kaiser Permanente acquired Group Health in 2017.
We use “Group Health” throughout the opinion.

App. 5
provide appropriate emergency medical care or transfer
the patient to another medical facility. 42 U.S.C.
§ 1395dd(b)(l).
An on-call physician may not refuse to provide
medical care and treat a patient properly transferred
by an emergency room (ER) physician. 42 U.S.C.
§ 1395dd(d)(l)(B)1 Under 42 U.S.C. § 1395dd(d)(l)(B),
a physician “is responsible for the examination,
treatment, or transfer of an individual in a
participating hospital, including a physician on call for
the care of such an individual.” A hospital that can
provide specialized care may not refuse to accept an
appropriate transfer from a referring hospital if the
receiving hospital has the capacity to treat the patient.
42 U.S.C. § 1395dd(g), (c)(2)(8). A transfer to a medical
facility is appropriate if “the transferring hospital
provides the medical treatment within its capacity
which minimizes the risks to the individual’s health,”
the receiving facility “has available space and qualified
personnel for the treatment of the individual,” and the
receiving facility “has agreed to accept transfer of the
individual and to provide appropriate medical
treatment.” 42 U.S.C. § 1395dd(c)(2)(A), (B).
Statewide Emergency Medical Trauma Care Centers
In 1990, the Washington State Legislature enacted
the Statewide Emergency Medical Services and
Trauma Care System Act (EMSTCSA), chapter 70.168
RCW, “to establish an efficient and well-coordinated
statewide emergency medical services and trauma care
system.” LAWS OF 1990, ch. 269; RCW 70.168.010(3).
The legislature states the intent of EMSTCSA is to
“reduce costs and incidence of inappropriate and

App. 6
inadequate trauma care and emergency medical service
and minimize the human suffering and costs associated
with preventable mortality and morbidity.” RCW
70.168.010(3). The objective of EMSTCSA is to “(a)
[p]ursue trauma prevention activities to decrease the
incidence of trauma; (b) provide optimal care for the
trauma victim; (c) prevent unnecessary death and
disability from trauma and emergency illness; and (d)
contain costs of trauma care and trauma system
implementation.” RCW 70.168.010(4).
EMSTCSA requires the Washington State
Department of Health to designate trauma care
services at hospitals. RCW 70.168.015(5). EMSTCSA
categorizes hospitals into one of five levels of care.
RCW 70.168.015(4). EMSTCSA designates the level of
trauma care services at each hospital as level I to level
V, the highest level of trauma care to the lowest level
of trauma care. RCW 70.168.015(4). (15). (23). Lower
level designated trauma centers can transfer patients
to high-level hospitals for care and treatment by a
specialist. RCW 70.168.015(23); WAC 246-976-700(8),
(9). Designated trauma service care hospitals must
provide emergency and trauma services to all patients
requiring care without regard to abilitv to pay. RCW
70.168.130(3)(b).
Uniform Disciplinary Act
The Uniform Disciplinary Act (UDA), chapter
18.130 RCW, governs licensing and discipline of
physicians. The purpose of the UDA is (1) to protect the
public and (2) to protect the standing of the medical
profession in the eyes of the public. In re the
Revocation of the License To Practice Medicine &

App. 7
Surgery of Kindschi. 52 Wn.2d 8, 11, 319 P.2d 824
(1958). The UDA gives the Washington State
Department of Health Medical Quality Assurance
Commission (MQAC)2 the authority to regulate,
monitor, and discipline physicians. RCW
18.30.040(2)(b)(ix); chapter 18.71 RCW; chapter 18.71A
RCW.
Statement of Charges
On April 4, 2016, the Washington State Department
of Health Medical Program (Department of Health)
filed a statement of charges against Dr. Dang, alleging
violation ofEMTALA and RCW 18.130.180(1), (4), and
(7) with respect to “Patient A,” “Patient B,” and
“Patient C.” RCW 18.130.180, “Unprofessional
Conduct,” provides, in pertinent part:
The commission of any act involving
(1)
moral turpitude, dishonesty, or corruption
relating to the practice of the person’s
profession, whether the act constitutes a crime
or not. ...
Incompetence, negligence, or malpractice
(4)
which results in injury to a patient or which
creates an unreasonable risk that a patient may
be harmed. . . .
Violation of any state or federal statute or
(7)
administrative rule regulating the profession in
2 In July 2019 (Laws OF 2019, ch. 55, § 7), MQAC became the
“Washington Medical Commission.”

App. 8
question, including any statute or rule defining
or establishing standards of patient care or
professional conduct or practice.3
Patient A
On October 20, 2012, 61-year-old Patient A went to
the ER at St. Clare Hospital. St. Clare is a level IV
trauma center. Patient A had a history of thyroid
cancer and undergone prior neck surgery. On October
20, Patient A had “facial swelling, an enlarged tongue
with airway obstruction, and difficulty with breathing
and swallowing.” A CT4 scan showed
bilateral lymph node dissection of the neck,
enlargement of the base of the tongue with
contiguous abnormal soft tissue swelling of the
left oral floor and left lateral wall of the oral
cavity, possibly representing a recurrent
squamous cell carcinoma or an infectious or
inflammatory process.
St. Clare did not have an on-call ENT doctor. The
ER doctor concluded Patient A needed a higher level of
care from an ENT specialist. The ER doctor contacted
Dr. Dang at St. Joseph to request transfer of Patient A.
Dr. Dang refused to accept the transfer of Patient A
because he was not on call for St. Clare but consulted

3 The legislature amended RCW 18.130.180 several times after
2016. Laws OF 2018, ch. 216, § 2: Laws OF 2018, ch. 300, § 4; Laws
OF 2019, ch. 427, § 17. The amendments do not change the
language pertinent to our analysis.
4 Computed tomography.

App. 9
with the ER doctor and said the patient could “follow
up with the clinic on Monday.”
Because of “the dangerous nature of Patient A’s
possible airway obstruction,” the St. Clare ER doctor
believed “a more urgent consult” was necessary and
transferred Patient A to Harborview Medical Center, a
level I trauma center. Harborview accepted the
transfer. St. Clare airlifted Patient A to Harborview.
An ENT specialist diagnosed Patient A with “acute
angioedema” and admitted Patient A to intensive care.
Patient B
On November 23, 2013, 34-3^ear-old Patient B went
, to the ER at St. Francis Hospital for “sore throat,
swelling, and difficulties with swallowing and
breathing.” St. Francis is a level IV trauma center. A
CT neck scan “showed fluid collection and findings
consistent with tonsillar abscess.” The ER doctor
concluded Patient B should be transferred to St. Joseph
for consultation and treatment by an ENT specialist.
St. Francis staff contacted St. Joseph on-call ENT
specialist Dr. Dang to request the transfer. Dr. Dang
refused to consult or accept the transfer.
Patient C
On June 8, 2014, 24-year-old Patient C went to the
ER at St. Clare. Patient C had pain in his ear and
throat and trouble swallowing. The ER doctor
diagnosed Patient C with a tonsillar abscess and a
potential “life-threatening” airway obstruction.
Patient C was diagnosed with tonsillar abscess
(a collection of pus behind the tonsils that

App. 10
involves pain, swelling, and often radiates into
the ear) with mild airway obstruction. The
treating staff suspected a retropharyngeal
abscess (deep neck space infections that can pose
an immediate life-threatening emergency with
potential for airway compromise).
The ER doctor contacted St. Joseph on-call ENT
specialist Dr. Dang to request a transfer for treatment.
Dr. Dang refused to consult or accept transfer of
Patient C because he was not on call for St. Clare.
The St. Clare ER doctor contacted Harborview.
After learning Harborview did not have the capacity to
accept transfer of Patient C, the St. Clare ER doctor
called CHI Franciscan Associate Chief Medical Officer
Dr. Kim Moore. Dr. Moore authorized transfer of
Patient C from St. Clare to St. Joseph for consultation
and treatment by the on-call ENT doctor.
When Patient C arrived at St. Joseph. Dr. Dang
refused to consult or treat Patient C. Dr. Moore
contacted Dr. Dang. Dr. Dang told Dr. Moore he would
not treat Patient C. Six hours later. Dr: Moore
transferred Patient C to Madigan Army Medical Center
for treatment. Madigan is a level II trauma center.
Administrative Hearing
Dr. Dang retained an attorney and filed an answer
to the statement of charges. Dr. Dang denied the
allegations that he violated EMT ALA or RCW
18.130.180(1), (4), and (7). Dr. Dang requested a
hearing.

App. 11
The three-day MQAC hearing began on January 30,
2017. The Department of Health called Dr. Dang; Dr.
Moore; expert witness Warren Appleton, MD, JD; and
St. Francis ER doctor Sarah Sliva to testify. Dr. Dang
called expert witnesses Robert Bitterman, MD, JD and
Dr. Alan Pokorny and his practice partner Dr. Alex
Moreano to testify. The presiding chief health law
judge admitted a number of exhibits into evidence,
including the Franciscan Health System (FHS) medical
records for Patients A, B, and C; the 2012 FHS bylaws;
and orthopedic surgery records for Dr. Dang.
Dr. Dang testified he was acting as an on-call doctor
only for St. Joseph. Dr. Dang testified he agreed to
consult on Patient A. Dr. Dang asserted he did not
refuse to consult on Patient B. Dr. Dang testified that
he did not refuse to accept the transfer of Patient C.
Dr. Dang said he told Dr. Moore that he was “not
physically capable” of treating Patient C. Dr. Dang
testified that in late February or early March 2014, he
had ankle surgery. Dr. Dang said that he fell and
injured his heel on June 8, 2014 and took a
“hydrocodone and acetaminophen combination ... pill”
for the pain.
Dr. Moore testified that she approved the transfer
of Patient C from the St. Clare ER to St. Joseph’s ER.
Dr. Moore said Dr. Dang “refused to come in and see
the patient.” Dr. Moore called Dr. Dang and “asked him
to go in and see the patient as the on-call ear, nose and
throat doctor.” Dr. Dang told Dr. Moore he “would not
go in to see the patient because the patient had come
from St. Clare.” Dr. Moore testified that Dr. Dang did

App. 12
not give “any other reason why he would not or could
not come in and see the patient."
Dr. Moore testified Dr. Dang had a dut}-- to come to
the St. Joseph ER on June 8. 2014 to consult and treat
Patient C. Dr. Moore said that “when a request is made
for consult." the FHS bylaws state the “consultant must
appear as - as reasonably as patient’s needs dictate and
if they are unable to care for the patient, then that
physician needs to assist to find someone else who can.”
If the on-call doctor is unavailable, “the physician
should try to find coverage or backup” and let the
emergency department “know that there is a crisis” and
that the physician is “not going to be available for call
so if a patient presents that needs their services, they
can start to look outside of that hospital.” Dr. Moore
testified Dr. Dang “did not tell me that he was unable
to perform his [on-]call duties.”
Expert witness Dr. Appleton testified that in his
opinion, Dr. Dang violated the professional conduct of
licensed health care providers under RCW 18.130.180
and EMTALA. Dr. Appleton testified that because of
the dangerous nature of the airway obstruction, the ER
doctor could not discharge Patient A and follow the
advice of Dr. Dang to wait until the following Monday.
Dr. Appleton testified Dr. Dang violated the standard
of care by refusing to consult and admit Patient B to St.
Joseph. Dr. Appleton testified the condition of tonsillar
abscess of Patient B was an emergency that required
immediate treatment by an ENT specialist. Dr.
Appleton testified the tonsillar abscess of Patient C
was an unstable medical emergency condition and the

App. 13
refusal of Dr. Dang to consult and admit the patient
violated the standard of care and EMTALA.
Dr. Dang’s expert witnesses Dr. Bitterman and Dr.
Pokorny testified that Dr. Dang did not violate the
standard of care or EMTALA.
Dr. Moreano is an ENT surgeon and practice
partner with Dr. Dang at Group Health in Tacoma. Dr.
Moreano testified Group Health affiliated with St.
Joseph in Tacoma. Dr. Moreano said that as the on-call
ENT specialist at St. Joseph, he regularly receives calls
from the ER doctor at St. Clare and St. Francis to
consult. Dr. Moreano testified that he and the other
two members of the Group Health ENT practice group,
Dr. Dang and Dr. Ken Deem, “decided” to tell the ER
doctors from the other FHS hospitals that “by the
bylaws of the [FHS] system we were not obligated to
get involved in - in the care of those patients.”
However, Dr. Moreano conceded, “We were told by our
own [Group Health] leadership that we must comply
with their request that we manage the patients from
their entire system.”
MQAC Decision and Order
On September 29, 2017, MQAC issued a 22-page
decision, “Findings of Fact, Conclusions of Law, and
Final Order.” The MQAC decision sets forth extensive
findings of fact that address FHS, EMTALA, statewide
emergency medical trauma centers, and the emergency
medical conditions of Patients A, B, and C. MQAC
made a number of credibility findings. MQAC expressly
found Dr. Dang’s testimony that he did not refuse to
consult on Patient B and that he was unable to treat

App. 14
Patient C not credible. MQAC found Dr. Appleton’s
expert testimony that Dr. Dang violated RCW
18.130.180 and EMTALAmore credible than the expert
witnesses who testified on behalf of Dr. Dang.
MQAC found FHS has a procedure to transfer
patients.
FHS has a Patient Placement Center, which
may be used to organize or facilitate an orderly
patient intake/transfer process. However, use of
a Patient Placement Center does not preclude
‘doctor to doctor’ consults or transfer requests.
Further, practitioners are not required by FHS
to use the transfer/placement center. Moreover,
failure to utilize a Patient Placement Center
does not relieve a practitioner from his/her
obligations under the Emergency Treatment and
Active Labor Act.5
With respect to Patient A, MQAC concluded Dr.
Dang did not violate RCW 18.130.180 or EMTALA.
Specifically, MQAC found that with respect to Patient
A, Dr. Dang “was not on-call” at St. Clare Hospital but
consulted with the St. Clare ER doctor and suggested
Patient A follow up with the clinic two days later.
MQAC concluded there was “insufficient evidence to
find that the Respondent violated EMTALA with
regard to Patient B.” But MQAC concluded Dr. Dang
violated RCW 18.130.180:

0 Footnotes omitted.

App. 15
[T)he Respondent’s refusal to consult with the
emergency room doctor concerning the care of
Patient B lowered the standing of the profession
in the eyes of the public. In addition, the
Respondent’s refusal to consult with a fellow
physician, acting in good faith to help a patient,
created an unreasonable risk of harm to Patient
B.
With respect to Patient C, MQAC concluded Dr.
Dang violated EMTALA and RCW 18.130.180:
Patient C was experiencing an emergency
medical condition, which had not been
stabilized, and his transfer to [St. Joseph] was
appropriate. As such, the Respondent violated
EMTALA when he failed to treat Patient C,
while on call for [St. Joseph], However,
assuming arguendo that the transfer was
improper, the Respondent (as the on-call
specialist), was nonetheless obligated under
EMTALA to appear and treat Patient C once he
was transferred to [St. Joseph], In addition, the
Respondent’s failure to identify a backup or to
inform Dr. Moore (or [St. Joseph]) that he was
unavailable at a time contemporaneous to the
transfer, was inconsistent with Respondent’s
explanation. Lastly, the Respondent’s refusal to
treat Patient C created an unreasonable risk of
harm to Patient C and lowered the standing of
the profession in the eyes of the public.
MQAC ordered oversight of Dr. Dang’s medical
license for two years and imposed monitoring
requirements and a $5,000 fine.

App. 16
Motion To Reconsider
On October 11. 2017. the Department of Health
filed a motion for reconsideration to correct two
scrivener’s errors in the final order. Dr. Dang did not
file a response or object. On December 20. 2017. MQAC
issued “Amended Findings of Fact. Conclusions of Law.
and Final Order” correcting the two scrivener’s errors.
Superior Court Anneal
Dr. Dang filed a petition for judicial review in
superior court. The superior court affirmed the
amended MQAC final order but modified the
monitoring period to begin May 26. 2017 instead of
September 29. 2017. Dr. Dang appeals the superior
court “Order on Petition for Judicial Review.”
Standard of Review
The Washington Administrative Procedure Act
(WAPA), chapter 34.05 ROW, governs judicial review of
disciplinary proceedings under the UDA, chapter
18.130 ROW. On review, we sit in the same position as
the superior court and apply the WAPA standards
directly to the record before the agency. Tanner v.
Emn’t Sec. Den’t. 122 Wn.2d 397, 402, 858 P.2d 494
(1993). As the party challenging MQAC’s decision. Dr.
Dang bears the burden of establishing the decision is
invalid under one or more of the WAPA criteria. ROW
34.05.570(l)(a).
Under ROW 34.05.570(3), we will reverse onfy if
(1) the administrative decision is based on an error of
law, (2) the administrative decision is unsupported by
substantial evidence, (3) the administrative decision is

App. 17
arbitrary or capricious, (4) the administrative decision
violates the constitution, (5) the order is inconsistent
with a rule of the agency, (6) the agency employed
improper procedures, or (7) the order is outside the
agemy’s statutory authority. Tanner. 122 Wn.2d at
402. We review conclusions of law de novo. Haley v.
Med. Disciplinary Bd., 117 Wn.2d 720, 730, 818 P.2d
1062 (1991). However, we give due deference to the
expertise and knowledge of MQAC and substantial
weight to the interpretation of the law the agency
administers when it is within the agency’s expertise.
Haley. 117 Wn.2d at 728. MQAC may rely on its
experience and specialized knowledge to evaluate the
evidence when finding unprofessional conduct. RCW
34.05.452(5); WAC 246-11-160(2); In re Disciplinary
Proceeding Against Brown. 94 Wn. App. 7, 13-14, 972
P.2d 101 (1998).
The standard of proof in a medical disciplinary
proceeding is that findings of fact must be proved by
clear and convincing evidence. Nguyen v. Dep’t of
Health. Med. Quality Assur. Comm’n, 144 Wn.2d 516,
529, 29 P.3d 689 (2001). We review MQAC’s findings of
fact like any other proceeding under WAPA for
substantial evidence. Ancier v. Dep’t of Health. Med.
Quality Assur. Comm’n, 140 Wn. App. 564, 572, 166
P.3d 829 (2007). Evidence is substantial if it is
sufficient to persuade a reasonable person of the truth
or correctness of the order. Ancier. 140 Wn. App. at
572-73. We take MQAC’s evidence as true and draw all
inferences in MQAC’s favor. Ancier, 140 Wn. App. at
573. We will not weigh conflicting evidence or
substitute our judgment regarding witness credibility
for that of MQAC. Davis v. Dep’t of Labor & Indus.. 94

App. 18
Wn.2d 119, 12 No. 78910-4-1/13 124, 615 P.2d 1279
(1980). Unchallenged agency factual findings are
verities on appeal. Darkenwald v. Emp’t Sec. Dep’t, 183
Wn.2d 237, 244, 350 P.3d 647 (2015). After determining
whether substantial evidence supports the findings of
fact, the court determines whether the findings in turn
support the conclusions of law and judgment. Nguyen.
144 Wn.2d at 530.
Unprofessional Conduct
18.130.180(1) and (4)

in

Violation

of

RCW

Dr. Dang claims that absent a finding that he owed
a duty of care to Patients B or C, MQAC erred in
deciding he violated RCW 18.130.180(1) and (4).
The plain language of RCW 18.130.180(1) and (4)
does not require MQAC to find a duty of care. RCW
18.130.180(1) states, in pertinent part, that
“unprofessional conduct” is “[t]he commission of any act
involving moral turpitude, dishonesty, or corruption
relating to the practice of the person’s profession,
whether the act constitutes a crime or not.” RCW
18.130.180(4) states, in pertinent part, that
“unprofessional conduct” is “[ijncompetence,
negligence, or malpractice which results in injury to a
patient or which creates an unreasonable risk that a
patient may be harmed.”
MQAC concluded Dr. Dang violated RCW
18.130.180(1) and (4) by refusing to consult or treat
Patients B and C. MQAC found the “refusal to consult”
with the ER doctor concerning treatment and care of
Patient B “lowered the standing of the profession in the
eyes of the public” and “created an unreasonable risk of

J

App. 19
harm to Patient B.” MQAC concluded that the “refusal
to treat Patient C created an unreasonable risk of harm
to Patient C and lowered the standing of the profession
in the eyes of the public.”
Dr. Dang cites Ivhung Thi Lam v. Global Medical
Systems, Inc.. 127 Wn. App. 657, 111 P.3d 1258 (2005),
to argue, that without finding he owed a duty of care,
MQAC could not conclude he violated RCW
18.130.180(1) and (4). Khung Thi Lam is inapposite. In
Ivhung Thi Lam, the court held the plaintiff must
establish a duty of care to prevail on a medical
malpractice claim. Khung Thi Lam. 127 Wn. App. at
669.
Dr. Dang argues his conduct did not constitute an
act of moral turpitude under RCW 18.130.180(1). In
Haley, the Washington Supreme Court held that the
conduct of a physician constitutes an act of moral
turpitude if the physician abuses the status of the
profession or lowers the standard of the profession in
the eyes ofthe public. Haley. 117 Wn.2d at 731-32. The
conduct “must indicate unfitness to bear the
responsibilities of, and to enjoy the privileges of, the
profession.” Haley, 117 Wn.2d at 731.
To perform their professional duties effectively,
physicians must enjoj^ the trust and confidence
of their patients. Conduct that lowers the
public’s esteem for physicians erodes that trust
and confidence, and so undermines a necessary
condition for the profession’s execution of its

App. 20
vital role in preserving public health through
medical treatment and advice.
Haley, 117 Wn.2d at 734.
Dr. Dang cites In re the License To Practice
Pharmacy of Farina. 94 Wn. App. 441, 972 P.2d 531
(1999), to argue his conduct did not constitute moral
turpitude. Farina is inapposite. In Farina, the court
addressed the difference between moral turpitude and
violation of a criminal statute. Farina, 94 Wn. App. at
460. The court concluded violation of a criminal statute
does not necessarily constitute an act of moral
turpitude. Farina. 94 Wn. App. at 460-61. Conduct that
meets the definition of “moral turpitude” is an act of
“inherent immorality.” Farina, 94 Wn. App. at 460-61.
Dr. Dang also claims MQAC applied a subjective
standard in determining he committed unprofessional
conduct in violation of RCW 18.130.180(1). The record
does not support his argument. Substantial evidence
supports the MQAC finding that Dr. Dang refused to
consult or treat Patients Band C and the findings
support the conclusion that Dr. Dang violated RCW
18.130.180(1) and (4).
Dr. Dang asserts that because there is no
distinction between the circumstances of Patient A and
Patient B, MQAC erred in reaching a different
conclusion for Patient B. The record does not support
his argument. MQAC found Dr. Dang did not refuse to
consult with the ER physician with respect to Patient
A and said, “Patient A could follow up with the clinic on
Monday (two days later).”

App. 21
MQAC found Dr. Dang committed unprofessional
conduct in violation of RCW 18.130.180(1) and (4) with
respect to Patient B. MQAC found that unlike Patient
A. Dr. Dang refused to consult with the ER doctor
about the care and treatment of Patient B.
[Dr. Dangj’s refusal to consult with the
emergency room doctor concerning the care of
Patient B lowered the standing of the profession
in the eyes of the public. In addition. [Dr.
Dangj’s refusal to consult with a fellow
physician, acting in good faith to help a patient,
created an unreasonable risk of harm to Patient
B.
Challenge to MQAC Finding Violation of EMTALA
Dr. Dang contends MQAC did not have the
authority to address whether he violated EMTALA. In
his prehearing statement in the MQAC proceeding, Dr.
Dang argued MQAC did not have the authority to
address whether he violated EMTALA. However, Dr.
Dang did not raise the argument again.
The Department of Health contends Dr. Dang
waived the right to raise this argument on appeal. We
agree. In an appeal of a decision governed by WAP A, an
appellant can raise an issue for the first time on only if
(1) the appellant did not know and had no duty to
discover facts that gave rise to the issue, (2) the
appellant did not have an opportunity to raise the
issue, or (3) the issue arose from a change in controlling
law or a change in agency action and the interests of
justice require resolution. RCW 34.05.554(l)(a)-(d);
King County v. Boundary Review Bd. for King County,

App. 22
122 Wn.2d 648, 668, 860 P.2d 1024 (1993). An
appellant must do more than raise the issue below.
Boundary Review Bd.. 122 Wn.2d at 670; Kitsap All, of
Prop. Owners v. Cent. Puget Sound Growth Mgmt.
Hr Vs Bd.. 160 Wn. App. 250, 271-72, 255 P.3d 696
(2011).
Nonetheless, we note that under the plain and
unambiguous language of RCW 18.130.180(7), MQAC
has the authority to determine whether “[violation of
any state or federal statue or administrative rule
regulating the profession in question, including any
statute or rule defining or establishing standards of
patient care or professional conduct or practice,”
constitutes unprofessional conduct.6
Dr. Dang contends the United States Department of
Health and Human Services Secretary has the
exclusive authority to initiate proceedings under EMT
ALA, and only the United States Court of Appeals has
jurisdiction over EMTALA claims.
The Department of Health filed charges under the
UDA, not EMTALA. The authority of MQAC under the
UDA does not conflict with EMTALA. EMTALA
specifically states that “[t]he provisions of this section
do not preempt any State or local law requirement,
except to the extent that the requirement directly
conflicts with a requirement of this section.” 42 U.S.C.
§ 1395dd(f). In Goldfarb v. Virginia State Bar, 421 U.S.
773, 792, 95 S. Ct. 2004, 44 L. Ed. 2d 572 (1975), the
United States Supreme Court recognized the

6 Emphasis added.

App. 23
compelling state interest in regulating healthcare
professionals:
[Sjtates have a compelling interest in the
practice of professions within their boundaries,
and that as part of their power to protect the
public health, safety, and other valid interests
the3? have broad power to establish standards for
licensing practitioners and regulating the
practice of professions.
Violation of RCW 18.130.180(7)
Dr. Dang argues the evidence does not support the
conclusion that he violated RCW 18.130.180(7). We
disagree. Substantial evidence supports the conclusion
that Dr. Dang violated RCW 18.130.180(7) by refusing
to treat Patient C in violation of federal law. The ER
doctor transferred Patient C to St. Joseph for
treatment because he “was experiencing an emergency
medical condition, which had not been stabilized.”
MQAC found the “transfer to [St. Joseph] was
appropriate. As such, the Respondent violated
EMTALA when he failed to treat Patient C, while on
call for [St. Joseph].” Unchallenged finding of fact 1.17
states that “[a]fter Patient C arrived at [St. Joseph],
the Respondent was again contacted and he continued
to refuse to consult or to treat Patient C.”
Dr. Moore testified that she recommended
transferring Patient C from the St. Clare emergency
department to the St. Joseph emergency department
for treatment. Dr. Moore testified the St. Joseph
emergency department (ED) doctor called her after he

App. 24
transferred Patient C because Dr. Dang refused to
treat Patient C. Dr. Moore testified:
A

Q
A
Q
A
Q
A

Q
A
Q
A
Q
A
Q
A

So after the patient was transferred ED to
ED, the ED physician at St. Joseph contacted
Dr. Dang and he refused to come in and see
the patient, so they called me.
Okay. And what did you do?
And I called Dr. Dang.
Okay. You spoke with him directly?
Yes.
Okay. What did he tell you or did you ask
him to accept the patient or do you recall the
conversation?
To the best of my recollection, I believe that
I asked him to go in and see the patient as
the on-calf ear, nose and throat doctor.
Okay. And what did he respond?
He said he would not go in to see the patient
because the patient had come from St. Clare.
Okay. Did he give you any other reason why
he would not or could not come in and see the
patient?
No.
Okay. Did he inform you that he had been
injured —
No.
or that he was otherwise unavailable?
No.

Substantial evidence supports the MQAC finding
that Dr. Dang violated ROW 18.130.180(7) and
EMTALA by refusing to treat Patient C after St. Clare
transferred Patient C to St. Joseph.

App. 25
Denial of Request To Admit Documentary Evidence
Dr. Dang contends MQAC abused its discretion by
denying his request to admit documentary evidence.
Dr. Dang argues the evidence would have refuted the
testimony of Dr. Moore and denial of his request is
prejudicial.
At the end of his case, Dr. Dang sought to introduce
new documentary evidence to rebut the testimony of
Dr. Moore. “The new evidence was in the form of .a
string of emails addressed to and from the Respondent,
Dr. Moore, and a number of addressees who did not
testify at [the] hearing.” The MQAC findings describe
the documentary evidence:
The emails ranged in time from the year 2011 to
2014. [Dr. Dang’s attorney] represented that: a)
the emails were taken from the Respondent’s
personal home computer; b) the emails had been
in the Respondent’s possession; and c) they were
not previously disclosed to [the Department of
Health’s attorney].
WAC 246-11-390(7) states:
Documentary evidence not offered in the
prehearing conference will not be received into
evidence at the adjudicative proceeding in the
absence of a clear showing that the offering
party had good cause for failing to produce the
evidence at the prehearing conference.'

' Dr. Dang asserts MQAC erred by not engaging in an analysis
under Burnet v. Spokane Ambulance. 131 Wn.2d 484, 933 P.2d

App. 26
MQAC ruled Dr. Dang did not show good cause for
failing previously to produce the documentary evidence:
Here. Dr. Moore was identified at the
prehearing conference as a witness. The
Respondent knew or should have known that
any documents containing prior statements by
Dr. Moore could become relevant. This is
especially true given that the documents have
been in the Respondent’s sole possession since
2011 and 2014, respectively. Thus, these
documents should have been disclosed if the
Respondent desired to have them become part of
the record. Moreover, any uncertainties
pertaining to Dr. Moore’s testimony could have
been resolved bj’ deposing her. However, the
Respondent’s failure to do either has resulted in
prejudice to the Department at this stage of the
proceeding. Consequently, the Respondent has
failed to demonstrate the necessary good cause
for failing to produce the evidence at the
prehearing conference.8
The record supports the MQAC finding that Dr.
Dang did not show good cause because he did not
produce the documentary evidence at the prehearing
conference.

1036 (1997). Burnet does not apply to an administrative
proceeding. WAC 246-11-390 controls.
Footnote omitted.

r

App. 27
RCW 34.05.461 (8)(a)
Dr. Dang argues the final order should be reversed
because MQAC did not issue the final order within the
90-day time limit under RCW 34.05.461(8)(a). The
Department of Health argues the 90-daj^ time limit is
directory, not mandatory. We agree with the
Department of Health.
RCW 34.05.461 (8)(a) states, in pertinent part, that
“final orders shall be served in writing within ninety
days after conclusion of the hearing or after submission
of memos, briefs, or proposed findings ... unless this
period is waived or extended for good cause shown.” A
statute setting a time within which a public officer is to
perform an official act is directory unless the nature of
the act or the language of the statute makes clear that
the time designation limits the power of the officer.
Niichel v. Lancaster, 97 Wn.2d 620, 623-24, 647 P.2d
1021 (1982). When the time for or manner of
performing the authorized action is not essential to the
purpose of the statute , the time and manner provisions
are considered directory. Niichel, 97 Wn.2d at 624.
Amended Findings of Fact. Conclusions of Law, and
Final Order
Dr. Dang cites RCW 34.05.470(3) to argue the
Amended Findings of Fact, Conclusions of Law, and
Final Order is unlawful because the presiding officer
did not comply with the 20-day time limit to file an
amended final order.
The Department of Health filed a timely motion for
reconsideration of the final order to correct two
scrivener’s errors. Dr. Dang did not file a response to

App. 28
the motion or object. On December 20. 2017. MQAC
issued an amended final order correcting the two
scrivener’s errors:
[MQAC] notes that two Scrivener’s errors
occurred in the Final Order. A Scrivener’s error
appears in Paragraph 1.3, which reads “[t]he
Respondent was employed by [St. Joseph] at all
times ... [“] instead of “[t]he Respondent was
employed by Group Health Cooperative at all
times relevant to this matter.” In addition, a
Scrivener’s error appears in Paragraph 1.10,
which reads “[specifically, the Respondent was
not on-call at [St. Joseph] . . . ,” instead of
“[specifically, the Respondent was not on-call at
St. Clare Hospital and thus had no duty to treat
or accept the transfer of Patient A.”[9)
Dr. Dang argues that because he filed the petition
for judicial review in superior court before the
presiding officer issued the amended final order, CR
60(a) controls. But the civil rules do not apply to
administrative agency proceedings. See Delacev v.
Clover Park Sch, Dist.. 117 Wn. App. 291, 296, 69 P.3d
877 (2003).
Due Process
For the first time on appeal, Dr. Dang contends
MQAC violated his procedural right to due process on
a number of grounds. Subject to certain limited
exceptions that are not applicable here, RCW
34.05.554(1) bars a litigant from raising issues on
9 Emphasis in original: some alteration in original.

App. 29
appeal not raised before the agency. With the exception
of his claim that MQAC did not consider the telephonic
testimony, we decline to consider the arguments he
raises for the first time on appeal.
Procedural due process requires notice and an
opportunity to be heard “ ‘at a meaningful time and in
a meaningful manner.’ ” Amunrud v. Bd. of Appeals.
158 Wn.2d 208, 216, 143 P.3d 571 (2006)10 (quoting
Mathews v. Eldridge. 424 U.S. 319, 333, 96 S. Ct. 893,
47 L. Ed. 2d 18 (1976)). “The process due depends on
what is fair in a particular context.” In re Pet, of
Morgan. 180 Wn.2d 312, 320, 330 P.3d 774 (2014). In
Mathews, the United States Supreme Court articulated
a balancing test to aid in determining when, and to
what extent, procedural protections are required:
[D]ue process generally requires consideration of
three distinct factors: First, the private interest
that will be affected by the official action;
second, the risk of an erroneous deprivation of
such interest through the procedures used, and
the probable value, if any, of additional or
substitute procedural safeguards; and finally,
the Government’s interest, including the
function involved and the fiscal and
administrative burdens that the additional or
substitute procedural requirement would entail.
Mathews. 424 U.S. at 335.
Dr. Dang contends he did not have a meaningful
opportunity to be heard during the three-day
10 Internal quotation marks omitted.

App. 30
administrative hearing. The record does not support
his argument. Dr. Dang was represented by counsel, he
called expert witnesses to testify on his own behalf, his
practice partner testified, he testified, and MOAG
admitted documentary evidence he presented.
The transcript of the MQAC hearing indicates the
testimony of the witnesses who testified by telephone
is not “audible.” Dr. Dang contends that because the
transcript shows the testimony of his expert witnesses
Dr. Bitterman and Dr. Pokorny and the testimony of
Dr. Sliva was “not audible,” MQAC ignored that
testimony. The record does not support his argument.
The witnesses testified at the hearing. The
Amended Findings of Fact, Conclusions of Law, and
Final Order makes clear that MQAC, Dr. Dang, his
attorney, and the attorney for the Department of
Health heard the testimony of Dr. Sliva, Dr. Bitterman,
and Dr. Pokorny. The Department of Health attorney
addressed the testimony of these witnesses in closing
argument. Dr. Dang’s attorney cited and relied on the
testimony of Dr. Sliva, Dr. Bitterman, and Dr. Pokorny
in closing argument. The record shows that in the
decision, MQAC did not rely on the transcript from the
hearing. The transcript of the hearing is not prepared
until after a petition for judicial review is filed. See
RCW 34.05.566.“

11 RCW 34.05.566 states, in pertinent part, “(1) Within thirty
days after service of the petition for judicial review, or within
further time allowed by the court or by other provision of law, the
agency shall transmit to the court the original or a certified copy
of the agency record for judicial review of the agency action.”

App. 31
We affirm the Amended Findings
Conclusions of Law, and Final Order. 12

of Fact,

s/
WE CONCUR:
s/

s/

19

The Department of Health does not contest the
determination that the effective date of the two-year oversight
monitoring period is May 26, 2017.

App. 32

APPENDIX C
IN THE SUPERIOR COURT
OF THE STATE OF WASHINGTON
IN AND FOR THE COUNTY OF KING
Case No. 17-2-28129-8 KNT
[Filed: August 9, 2018]
HUNG DANG: M.D.,
Petitioner.
v.
Judicial Review of Agencj^ Action
of the WASHINGTON STATE DEPARTMENT
OF HEALTH, MEDICAL QUALITY
ASSURANCE COMMISSION,
Respondent.

)
)
)
)
)
)
)
)

)
)
)
)
)

ORDER ON PETITION
FOR JUDICIAL REVIEW
THIS MATTER came before the Court on
Petitioners Petition for Judicial Review on June 29,
2018. The Petitioner, Hung Dang, M.D., appeared pro
se and the Respondent appeared through its attorney
of record, Christina L. Pfluger, Assistant Attorney

App. 33
General. The Court, having considered the arguments
of the parties, having reviewed the administrative
record, and the following pleadings:
1.

Petition for Judicial Review dated October
27, 2017;

2.

Trial Brief of Petitioner dated April 10, 2018;

3.

Respondent’ Response to Petitioner’s Trial
Brief dated May 1, 2018; and

4.

Reply Brief of Petitioner dated May 15, 2018

Now enters the following:
FINDINGS OF FACT AND
CONCLUSIONS OF LAW
1.

Pursuant to RCW 34.05.570(3), a court shall
grant relief from an agencj' order in an
adjudicative proceeding only if it determines
that:
(a) The order, or the statute or rule on which
the order is based, is in violation of
constitutional provisions on its face or as
applied;
(b) The order is outside the statutory
authority or jurisdiction of the agency
conferred by any provision of law;
(c) The agency has engaged in unlawful
procedure or decision-making process, or has
failed to follow a prescribed procedure;

App. 34
(d) The agency has erroneously interpreted or
applied the law;
(e) The order is not supported by evidence
that is substantial when viewed in light of
the whole record before the court, which
includes the agency record for judicial
review, supplemented by any additional
evidence received by the court under this
chapter;
(f) The agency has not decided all issues
requiring resolution by the agency;
(g) A motion for disqualification under RCW
34.05.425 or 34.12.050 was made and was
improperly denied or, if no motion was made,
facts are shown to support the grant of such
a motion that were not known and were not
reasonably discoverable by the challenging
party at the appropriate time for making
such a motion;
(h) The order is inconsistent with a rule of
the agency unless the agency explains the
inconsistency by stating facts and reasons to
demonstrate a rational basis for
inconsistency; or
(i) The order is arbitrary or capricious.
2.

The burden of demonstrating the invalidity
of the agency action is on the party asserting
the invalidity and the court shall only grant
relief if it determines that the person seeking
judicial relief has been substantially

App. 35
prejudiced by the action complained of RCW
34.05.570(1X3), (d).
3.

The court further being aware that in
reviewing matters within agency discretion,
the court shall limit its function to assuring
that the agemw has exercised its discretion
in accordance law, and shall not itself
undertake to exercise the discretion that the
legislature has placed in the agency. RCW
34.05.574. Additionally, the court'" review is
limited to the agency record and must not
consider new evidence or issues unless an
exception has been met; the court finds no
exception has been shown by the Petitioner
to admit new evidence or issues not
previous^ raised before the agency and in
the record. RCW 34.05.558; RCW
34.05.562(1). -

4.

There is substantial evidence in
administrative record to support
Commission’s findings of fact.

5.

All unchallenged findings of fact are verities
on appeal and the Petitioner did not
challenge paragraphs 1.1 through 1.2.

6.

The Commission was reasonable in relying
upon on the testimony and evidence provided
at the hearing.

7.

There is no error of law in the Medical
Commission’ conclusion that the Petitioner
committed unprofessional conduct as defined
in RCW 18.130.180(1), (4), and (7). Further,

the
the

App. 36
the Medical Commission has the expertise
required for these determinations.
8.

The Medical Commission has the authority
to determine whether a violation of EMTALA
(42 USC § 1395dd(d)(l)) occurred pursuant to
their authority to find unprofessional conduct
when a licensee violates a federal statute or
rule that regulates the profession under
RCW 18.130.180(7).

9.

The Medical Commission did not violate the
appearance of fairness doctrine.

10.

The Medical Commission did not violate the
Petitioner’s Due Process Rights. The
Petitioner received notice of the charges of
unprofessional conduct and was provided a
meaningful opportunity to be heard before a
panel of impartial Commission members. A
court will not disturb an administrative
decision so long as a party is given adequate
notice and an opportunity to be heard and
any alleged procedural irregularities do not
undermine the fundamental fairness of the
proceedings. Sherman v. State, 128 Wn.2d
164, 184, 905 P.2d 355 (1995).

11.

There were a number of procedural
irregularities in the investigation and
adjudication process:
(a) The court finds the investigation and
adjudication took longer than the
aspirational time periods identified in
chapter 246-14 WAC;

App. 37
(b) The Findings of Fact, Conclusions of Law,
and Final Order was issued later than ninety
(90) days after the conclusion of the hearing
and more than ninety (90) days beyond the
Presiding Officer’ extension for good cause
(See ROW 34.05.461(8)(a));
(c) The Presiding Officer Post-Flearing Order
No. 2: Order Setting Briefing Schedule on the
Department’ timely Petition for
Reconsideration was signed one (1) day and
served two (2) days beyond the required
twenty (20) days required by WAC 246-11580; and
(d) The testimony of witnesses who testified
by telephone - specifically, the testimony of
Drs. Sliva, Pokorny and Bitterman - was not
recorded in a way that allowed the testimonj^
to be transcribed and presented on appeal as
required by RCW 34.05.449(4).
12.

The procedural irregularities enumerated in
paragraph 11 did not undermine the
fundamental fairness of the proceedings and
did not violate the Petitioner’s Due Process
Rights; however, the court finds that
Petitioner has been prejudiced by the failure
to comply with deadlines for issuing the
decision.
(a) WAC 246-14-010 and WAC 246-14-030
indicate that the time periods set in chapter
246-14 WAC are aspirational and are not
expected to apply in every case and the

App. 38
expiration of the time periods does not stop
the case from proceeding. The Petitioner has
not shown that the length of investigation or
adjudication prejudiced him or undermined
the fundamental fairness of the proceedings.
In addition, some of the delay was at his or
his counsel’s request. In addition, Dr. Dang
did not object to the delay prior to or at the
time of the hearing.
(b) The Petitioner has not shown any
authority that the ninety (90) day
requirement s jurisdictional or otherwise
allows the court to overturn the Commission’
order if the timeline is not met.
(c) However, the delay in the order has
prejudiced the Petitioner by extending the
period of time period he has been subject to
sanctions or the possible imposition of
sanctions. Although the Petitioner’s license
was not restricted during the pendency of the
proceeding or order, a two-year period of
monitoring that should have been completed
as of May 26, 2019 had the order been timely
issued, has been extended to September 29,
2019.
(d) Although the Presiding Officer issued
Post-Hearing Order No. 2 beyond the twenty
(20) days allowed by WAC 246-11-580, the
Petitioner has not shown he was prejudiced
by the late action nor has Petitioner shown
that the fairness of the proceeding was
undermined by the Presiding Officer’ delay in

App. 39
acting on the Department’s timely Petition
for Reconsideration. There is no dispute that
the two errors identified in the Department’
timely Petition for Reconsideration were, in
fact, errors. Furthermore, the Commission
did not rely on the incorrect facts in making
its determination in the Final Order.
(d) Dr. Dang has failed to identify any
testimony by the telephonic witnesses that is
material to the arguments he has made on
review. Moreover, he has not attempted or
proposed a reconstruction of the missing
record as permitted by Rule of Appellate
Procedure 9.4, although he himself urged (for
other purposes) that the Rules of Appellate
Procedure apply.
12.

There were no violations or errors under the
APA standards for review.

Based on the foregoing, this court hereby ORDERS:
1.

The effective date of the Final Order shall be
deemed to be May 26, 2017 and not
September 29, 2017. Accordingly, Dr. Dang
may petition the Commission in writing to
terminate the Final Order on or after May
26, 2019 if he has fully complied with all
requirements of the Final Order;

2.

In all other respects, the Petition for Judicial
Review is DENIED;

3.

Dr. Dang’s request for attorney’s fees and
costs is DENIED;

a

App. 40
4.

Dr. Dang’s motion for reconsideration of the
court’s Order Denying Stay of Final MQAC
Order is DENIED.

DATED this 9th day of August, 2018.
Electronic signature is attached
s/
JUDGE JANET M. HELSON

King County Superior Court J
udicial Electronic Signature Page
Case Number: 17-2-28129-8
Case Title: DANG VS STATE OF WASHINGTON OF
HEALTH ET ANO
Document Title: ORDER ON PETITION FOR REVIEW
Signed by: Janet Helson
Date: 8/9/2018 3:29:36 PM
s/

Judge/Commissioner: Janet Helson

App. 41

APPENDIX D
STATE OF WASHINGTON DEPARTMENT OF
HEALTH MEDICAL QUALITY ASSURANCE
COMMISSION
Master Case No. M2014-1258
[Filed December 20. 2017]
In the Matter of:
HUNG H. DANG,
Credential No. MD.MD.60034194,
Respondent.

)
)
)
)
)
)

APPEARANCES:
Hung H. Dang, the Respondent, by
Rebecca Ringer and Laura Martin,
Attorneys at Law
Department of Health Medical Program
(Department), bj^ Office of the Attorney General,
per Debra Defreyn, Assistant Attorney General
PANEL: Mark Johnson, M.D., Chair
Warren Howe, M.D.
Yanling Yu, Ph.D.
PRESIDING OFFICER: Roman S. Dixon Jr.,
Chief Health Law Judge

App. 42
AMENDED FINDINGS OF FACT, CONCLUSIONS
OF LAW, AND FINAL ORDER
AMENDMENT
This Final Order was entered on September 29,
2017. On October 11, 2017, the Department filed its
Petition for Reconsideration. Specifically, the
Department requested “that two findings within the
Findings of Fact in the Final Order” be corrected.1 On
November 1, 2017, the Adjudicative Service Unit issued
Post Hearing Order No. 2: Order Setting Briefing
Schedule (Briefing Schedule). Per the Briefing
Schedule, the Respondent’s Response brief was due on
November 13, 2017. To date, the Respondent has failed
to respond to the Department’s Petition for
Reconsideration.2 After review of the Petition and the
evidence, the Commission amends the Findings of Fact,
Conclusions of Law, and Final Order issued as follows
in bold type.
SCRIVENER’S ERROR
The Commission notes that two Scrivener’s errors
occurred in the Final Order. A Scrivener’s error
appears in Paragraph 1.3, which reads “[t]he
Respondent was employed by SJMC at all times . . .”
instead of “[t]he Respondent was employed by Group
Health Cooperative at all times relevant to this

The Department’s Petition for Reconsideration was timely
and conformed to the requirements of WAC 246-11-580.
9

" On November 1, 2017, the Respondent filed his Petition for
Judicial Review in King County Superior Court.

App. 43
matter.” In addition, a Scrivener’s error appears in
Paragraph 1.10, which reads “[specifically, the
Respondent was not on-call at SJMC . . . ,” instead of
"[specifically, the Respondent was not on-call at St.
Clare Hospital and thus had no duty to treat or
accept the transfer of Patient A.” Under the rationale
of Civil Rule (CR) 60(a) and the significant decision In
re Jantz, OPS No. 90-07-31-065 MA (June 28, 1993),
these corrections are entered and the corrections are in
bold type.
INTRODUCTION
A hearing was held in this matter on January 30,
2017 - February 1, 2017, regarding allegations of
unprofessional conduct. CONDITIONS IMPOSED.
ISSUES
Did the Respondent commit unprofessional conduct
as defined by RCW 18.130.180(1), (4), and (7) and
EMTALA, 42 USC § 1395dd(d)(l)(B) and (g).
If the Department proves unprofessional conduct,
what are the appropriate sanctions under RCW
18.130.160?
SUMMARY OF PROCEEDINGS
At the hearing, the Department presented the
testimony of Hung H. Dang, M.D., the Respondent;
Kim Moore, M.D.; Warren Appleton, M.D., JD,
FABEM, Expert Witness; and Sarah G. Sliva, M.D. The
Respondent testified on his own behalf and also
presented the testimony of Robert Bitterman, J.D.,

App. 44
M.D.. Expert Witness; Alex Moreano, M.D.; and Alan
Porkornv, M.D., Expert Witness.
Amendment of the Corrected Statement of
Charges
The Department noted that the Corrected
Statement of Charges contained an error with regard
to Patient B. Specifically, the Department noted that
paragraphs 1.7 through 1.9 should indicate that
Patient B was seen in the ER of St. Francis Hospital,
instead of St. Clare Hospital. Accordingly, the
Department requested that the Corrected Statement of
Charges be amended. The Respondent did not object.
Motion to Amend GRANTED.
Respondent’s Motion to Admit New Documentary
Evidence
On the third day of hearing, prior to resting his
case-in-chief, the Respondent sought to introduce new
documentary evidence to rebut the testimony of Kim
Moore, M.D.3 The new evidence was in the form of a
string of emails addressed to and from the Respondent,
Dr. Moore, and a number of addressees who did not
testifj^ at hearing. The emails ranged in time from the
year 2011 to 2014. Attorney Ringer represented that:
a) the emails were taken from the Respondent’s
personal home computer; b) the emails had been in the
Respondent’s possession; and c) they were not
previously disclosed to AAG Defreyn. Attorney Ringer
argued that the documents were relevant, would speak
2

Dr. Moore testified on the first day of hearing during the
Department’s case-in-chief.

App. 45
to Dr. Moore’s credibility and only became necessary
after Dr. Moore’s testimony. As such, they should be
admitted as rebuttal evidence.4 AAG Defreyn argued
that the Respondent failed to demonstrate the
necessary good cause to admit the documents at this
stage of the proceeding. Specifically, the documents
were in the Respondent’s exclusive control and they
were not identified prior to hearing. Further, the
Respondent’s surprise by Dr. Moore’s testimony is not
good cause, because the Respondent could have, but
failed to depose Dr. Moore. Lastly, admitting the
documents would be fundamentally unfair because the
emails may not represent the complete story as they
were sent to and from numerous individuals who did
not testifj^ at hearing. As such, the documents should
be excluded.
The purpose of rules relative to discovery is to avoid
surprise in trial and to secure more perfect justice.
Peacock v. Piper, 81 Wash. 2d 731, 504 P.2d 1124
(1973). In addition, the discovery rules are intended to
make a trial less a game of blind man’s bluff and more
a fair contest with the basic issues and facts disclosed
to the fullest practical extent. Taylor v. Cessna Aircraft
Co., Inc., 39 Wash. App. 828, 696 P.2d 28 (Div. 3 1985).
Consequently, “ [Documentary evidence not offered in
the prehearing conference shall not be received into

The Respondent did not seek leave of the court to recall Dr.
Moore as a rebuttal witness. Rather, Attorney Ringer indicated
“the Respondent would not object to the Department recalling
Dr. Moore to clarify these issues.” In addition, the Respondent did
not recall Dr. Moore as a witness in his case-in-chief; despite
having listed Dr. Moore as a witness.

App. 46
evidence at the adjudicative proceeding in the absence
of a clear showing that the offering party had good
cause for failing to produce the evidence at the
prehearing conference.” WAC 246-11-390(7).
Here. Dr. Moore was identified at the prehearing
conference as a witness. The Respondent knew or
should have known that any documents containing
prior statements by Dr. Moore could become relevant.
This is especially true given that the documents have
been in the Respondent’s sole possession since 2011
and 2014, respectively. Thus, these documents should
have been disclosed if the Respondent desired to have
them become part of the record.8 Moreover, any
uncertainties pertaining to Dr. Moore’s testimony could
have been resolved bj^ deposing her. However, the
Respondent’s failure to do either has resulted in
prejudice to the Department at this stage of the
proceeding. Consequently, the Respondent has failed to
demonstrate the necessary good cause for failing to
produce the evidence at the prehearing conference.
Motion to admit is DENIED.6
The Presiding Officer admitted the following
Department exhibits:

However, nothing would have prevented the Respondent
from questioning Dr. Moore about any alleged prior statements
while she was subject to cross-examination.
6 See ER 403 and untimely per WAC 246-11-390(7); see also
Prehearing Order No. 2: Order Defining Conduct of Hearing, dated
January 6, 2017).

App. 47
Exhibit D-l: Letter from Ann Clark, R.N.,
Franciscan Health System to Kate
Mitchell, CMS Division of Survey and
Certification, dated June 16, 2014.
Exhibit D-2: Letter from Ann Clark, Risk Manager,
St. Joseph Medical Center to Tim
DOH Health Care
S1 a v i n,
Investigator, dated July 17, 2014.
Exhibit D-3: Letters from Department of Health
(DOH) Health Care Investigator Tim
Slavin to the Respondent, dated
August 11, 2014 and August 25, 2014.
Exhibit D-4: Letter from the Respondent to
Investigator Slavin, faxed on
September 2, 2014.
Exhibit D-5: Medical records for Patient A supplied
by Franciscan Health System.
Exhibit D-6: Medical records for Patient B supplied
by Franciscan Health System.
Exhibit D-7: Medical records for Patient C supplied
by Franciscan Health System.
The Presiding Officer admitted the following
Respondent exhibits:
Exhibit R-7: Franciscan Health Systems, Medical
Staff Bylaws (July 26, 2012).
Exhibit R-8: Franciscan Health Systems, Rules and
Regulations (Approved July 26, 2012).

App. 48
Exhibit R-9:

Franciscan
Health Systems,
Patient Placement Center
Flowchart.

Exhibit R-10:

June 22, 2015 Declaration of Ken
Deem, M.D.

Exhibit R-ll:

June 23, 2015 Declaration of Alex
Moreano, M.D.

Exhibit R-13: Dr. Dang’s orthopedic surgery records
regarding his right Achilles tendon repair.
The Presiding Officer excluded the following
documents:
Exhibit R-14: Email from Dennis Elonka, M.D., to
the Respondent, dated October 11, 2011. Attached
thereto is a string of emails to several other
addresses (Excluded - ER 403 and Untimely per
WAC 246-11-390(7); see also Prehearing Order No.
2: Order Defining Conduct of Hearing, dated
January 6, 2017).
Exhibit R-15: Email string from Allister Stone to
the Respondent and several other addressees (Dr.
Moore was listed as cc’d in one or more of the
emails), dated October 6, 2011, (Excluded - ER 403
and Untimely per WAC 246-1 F390(7); see also
Prehearing Order No. 2: Order Defining Conduct of
Hearing, dated January 6, 2017).
Exhibit R-16: Email string from Craig Iriye, M.D.,
to Marc Mora (the Respondent, Dr. Moore, and
several other addressees were listed as cc’d in one
or more emails), dated April 30, 2014 (Excluded -

App. 49
ER 403 and Untimely per WAC 246-11-390(7); see
also Prehearing Order No. 2: Order Defining
Conduct of Hearing, dated January 6, 2017).
Exhibit R-17: Email string from Craig Iriye, M.D.,
to the Respondent and several other addressees,
dated April 30, 2014. Attached thereto appears to be
an email from Dr. Moore to Craig Iriyie, also dated
April 30, 2014 (Excluded - ER 403 and Untimely per
WAC 246-11-390(7); see also Prehearing Order No.
2: Order Defining Conduct of Hearing, dated
January 6, 2017).
I. FINDINGS OF FACT
1.1
The Respondent was granted a license to
practice as a physician and surgeon in the state of
Washington on August 29, 2008.
1.2
The Respondent’s license is currently active.
The Respondent also has an active license in
Oklahoma. The Respondent specializes in
otolaryngology treatment with respect to ear, nose, and
throat (ENT) issues.
Franciscan Health System (FHS)
The Franciscan Health System (FHS) is a
1.3
non-profit corporation, whose purpose is to serve as a
health system providing patient care, education, and
research consistent with the Mission Statement of FHS
and Catholic Health Initiatives (CHI).' Hospitals
within the FHS include St. Anthony, St. Clare, St.

' See Exhibit R-7.

App. 50
Elizabeth, St. Francis, and St. Joseph Medical Center
(SJMC).8 The Respondent was employed by Group
Health Cooperative at all times relevant to this
matter.
FHS has a Patient Placement Center, which may be
used to organize or facilitate an orderly patient
intake/transfer process.9 However, use of a Patient
Placement Center does not preclude ‘doctor to doctor’
consults or transfer requests.10 Further, practitioners
are not required by FHS to use the transfer/placement
center. Moreover, failure to utilize a Patient Placement
Center does not relieve a practitioner from his/her
obligations under the Emergency Treatment and Active
Labor Act.
Emergency Medical Statewide Trauma Care
(EMSTC) Centers
1.4
Per the Emergency Medical Statewide
Trauma Care (EMSTC) rules, hospitals are required to
be categorized in one of five levels of care in order to
receive state funds for trauma services. Under this
system, level I is the highest trauma center and V is
the lowest. Both St. Clare and St. Francis are level IV

This allegations in the present case involve St. Clare, St.
Francis, and St. Joseph Medical Center.
9 See Exhibit R-9.
10 See Exhibits R-7 through R-9.

App. 51
trauma centers.11 Accordingly, lower level centers are
able to transfer patients to higher level facilities in
order to increase the level of care available to those
patients.
EMTALA
1.5
The Emergency Treatment and Active Labor
Act (EMTALA) was instituted to address
discrimination and it mandates non-discriminatory
medical screening examinations.12 Under EMTALA, a
hospital with an emergency department, must provide
for appropriate medical screening examinations within
the capability of the hospital’s emergency department,
to determine whether or not an emergency medical
condition exists.13 In general, if any individual comes to
a hospital and the hospital determines that the
individual has an emergency medical condition, the
hospital must provide either: a) within the staff and
facilities available at the hospital, for such further
medical examination and any treatment necessary to
stabilize the medical condition, or b) for transfer of the
individual to another medical facility.14 A hospital that

11 Harborview Medical Center is a level I trauma center;
Madigan Army Medical Center is a level II center.
12 See 42 U.S.C. 1395dd.
13

Id.

14 See 42 U.S.C. 1395dd(b)(l). An emergency medical condition
is defined as a medical condition manifesting itself by acute
symptoms of sufficient severity such that the absence of immediate
medical attention could reasonably result in placing the health of

App. 52
has specialized capabilities or facilities may not refuse
to accept from a referring hospital an appropriate
transfer of an individual who requires such specialized
capabilities or facilities if the receiving hospital has the
capacity to treat the individual.10
Patient A
1.6
Patient A was a sixty-one year old patient,
who was seen in the emergency room (ER) at St. Clare
Hospital on October 20, 2012. St. Clare is a level IV
trauma care center. Patient A was seen for facial
swelling, an enlarged tongue with airway obstruction,
and difficulty with breathing and swallowing.16 Patient
A was 74 inches tall and weighed approximately 300
lbs. In addition, Patient A had a history of thyroid
cancer, had undergone prior neck surgery and was on
an ace-inhibitor. 17
A physical examination of Patient A noted
1.7
increased saliva and drooling, hoarseness, swelling,

the individual in serious jeopardy, serious impairment to bodily
functions. See 42 U.S.C. 1395dd((e)(l).
lj Id. A transfer to a medical facility is appropriate if, inter
alia, the transferring hospital provides the medical treatment
within its capacity which, minimizes the risks to the individuals
health: the receiving facility has available space and qualified
personnel for treatment of the individual: and, has agreed to accept
transfer of the individual and provide appropriate medical
treatment. See 42 U.S.C. 1395dd(C)(2).
16 Exhibit D-5.
17 Id.

App. 53
induration of the floor of the mouth and left anterior
cervical triangle swelling. The examination of the
mouth was noted as “crowded.” A CT scan showed
bilateral lymph node dissection of the neck,
enlargement of the base of the tongue with contiguous
abnormal soft tissue swelling of the left oral floor and
left lateral wall of the oral cavitjq possibly representing
a recurrent squamous cell carcinoma or infectious or
inflammatory process.
1.8
Based on Patient A’s prior medical history
and current condition (as determined by a physical
examination), the ER physician was concerned that
Patient A’s condition could worsen and he needed a
specialist, who could render a higher level of care. St.
Clare Hospital did not have an ENT physician on-call.
As such, the ER physician from St. Clare Hospital
contacted the Respondent at the neighboring St. Joseph
Medical Center (SJMC), a level II trauma center. The
Respondent refused to accept transfer of Patient A. The
Respondent reasoned that he was not on-call for St.
Clare and stated that Patient A could follow up with
the clinic on Monday (two days later).
1.9
Nonetheless, the attending physician felt a
more urgent consult was necessary due to the
dangerous nature of Patient A’s possible airway
obstruction. The attending physician contacted
Harborview, a level I trauma center, which accepted
the transfer for an emergency ENT and surgical
consultation. Patient A was airlifted to Harborview
where he was assessed with acute angioedema and
admitted to intensive care for overnight monitoring.

App. 54
1.10 Here, there is insufficient evidence to find
that the Respondent violated the standard of care to
Patient A. Specifically, the Respondent was not on-call
at St. Clare Hospital and thus, had no duty to treat
or accept the transfer of Patient A. In addition, Patient
A was not transferred to SJMC. Consequently, there is
insufficient evidence to find an EMTALA violation with
regard to Patient A.
Patient B
1.11 Patient B was a thirty-four year old patient
who was seen in the St. Francis ER on November 23,
2013.18 Patient B complained of a sore throat and
difficulties with swallowing and breathing, which had
been present off and on for a week.29 Patient B was also
determined to also have uvular deviation to the left,
due to swelling from a right oropharynx.20 In addition,
a neck CT scan showed fluid collection and findings
consistent with tonsillar abscess.21 Based on the
physical examination and the CT scan results, the ER
physician determined that it was necessary to transfer
Patient B to SJMC for further treatment and to consult
with an ENT specialist.22 The Respondent, who was

18

St Francis is a level IV trauma center.

10

See Exhibit D-6.

20.

Id.

21 Id.
22 Id.

App. 55
the ENT specialist on call for SJMC, was contacted for
transfer.
1.12 St. Francis contacted the Respondent and
attempted to discuss Patient B’s case. The Respondent
refused discuss the case, to admit Patient B or agree to
a transfer.23 Consequently, Patient B ultimately had
his abscess successfully drained by an ER physician at
St. Francis Hospital, who had experience with the
procedure, and was discharged with no ill effects.24
1.13 Here, there is insufficient evidence to find
that the Respondent violated EMTALA with regard to
Patient B. However, the Respondent’s refusal to
consult with the emergency room doctor concerning the
care of Patient B lowered the standing of the profession
in the eyes of the public. In addition, the Respondent’s
refusal to consult with a fellow physician, acting in
good faith to help a patient, created an unreasonable
risk of harm to Patient B.
Patient C
1.14 Patient C was a twenty-four year old patient
who was seen in the St. Clare ER on June 8, 2014.
Patient C complained of ear pain, sore throat and

93

At hearing, the Respondent testified that he did not refuse
to consult or treat Patient B. Rather, he told the doctor calling on
behalf of St. Francis to “let me call you back when I get home, so
I can look at information to see if this is an appropriate transfer.’’
The Panel was not persuaded by Respondent’s testimony and
deemed this act a efusal to consult.
24 Ibid.

App. 56
trouble swallowing and was subsequently diagnosed
with a tonsillar abscess with mild airway obstruction.20
The treating staff suspected a retropharyngeal
abscess.26
1.15 The attending physician spoke with the
Respondent who was the on-call ENT specialist at
SJMC: The Respondent refused to accept a transfer or
to consult on Patient C, stating that he was “not oncall” for St. Clare.2' The Respondent failed to inform
the attending physician that Respondent was injured
or otherwise unavailable to treat Patient C.28 In
addition, the Respondent failed to inform SJMC that he
was unavailable or to designate/contact a backup oncall provider.
1.16 The ER physician from St. Clare Hospital
then contacted Harborview Hospital in Seattle (a level

25 See Exhibit D-7.
96

Retropharyngeal abscesses are deep neck space infections
that can pose an immediate life-threatening emergency with
potential for airway compromise.
27 Ibid.
98

At hearing, the Respondent testified that an injury suffered
prior to being contacted about Patient C rendered him unavailable
to treat Patient C, due to pain and having taken narcotic pain
medication. The Panel was not persuaded by Respondent’s afterthe-fact justification.

App. 57
I trauma center), which did not have capacity to accept
Patient C. 29
1.17 The ER physician next contacted Dr. Moore,
one of the Associate Chief Medical Officers'(ACMO)
within the Franciscan Health System. Dr. Moore
accepted transfer of Patient C to SJMC. After Patient
C arrived at SJMC, the Respondent was again
contacted and he continued to refuse to consult or to
treat Patient C.30 Next, Dr. Moore contacted the
Respondent, who again refused to treat Patient C in
the SJMC emergency department. The Respondent
failed to inform Dr. Moore that he was injured or
unavailable to treat Patient C.
1.18 Approximately six hours after the
Respondent was initially contacted, Patient C was
ultimately transferred to Madigan Arnry Medical
Center’s Emergency Department (another level II
trauma center), where he was treated successfully.31
1.19 Here, Patient C was experiencing an
emergency medical condition, which had not been
stabilized, and his transfer to SJMC was appropriate.
As such, the Respondent violated EMTALA when he
failed to treat Patient C, while on call for SJMC.
However, assuming arguendo that the transfer was
improper, the Respondent (as the on-call specialist),
was nonetheless obligated under EMTALA to appear
29 See Exhibit D-7.
30 Id.
31 Id.

App. 58
'""N

and treat Patient C once he was transferred to SJMC.
In addition, the Respondent’s failure to identify a
backup or to inform Dr. Moore (or SJMC) that he was
unavailable at a time contemporaneous to the transfer,
was inconsistent with Respondent’s explanation.
Lastly, the Respondent’s refusal to treat Patient C
created an unreasonable risk of harm to Patient C and
lowered the standing of the profession in the eyes of the
public.
Credibility Finding
1.20 The
Respondent denies
committing
unprofessional conduct as alleged in the Statement of
Charges regarding Patients A through C. The
Commission finds the testimony of Warren Appleton,
M.D., JD, FABEM to be more credible regarding the
standard of care in Washington than that of the
Respondent and Respondent’s experts. In addition, the
Commission found the documentary evidence and Dr.
Appleton’s testimony more persuasive than that of the
Respondent’s testimony. Lastly, Dr. Moore testified
that the Respondent did not express an inability to care
for Patient C. Rather, that he would not do so. The
Commission was persuaded by this evidence that the
Respondent refused to treat Patient C.
II. CONCLUSIONS OF LAW
2.1
The Commission has jurisdiction over the
Respondent and subject of this proceeding. RCW
18.130.040 RCW.
2.2
The Washington Supreme Court has held the
standard of proof in disciplinary proceedings against
physicians is proof by clear and convincing evidence.

App. 59
Nguyen v. Department of Health, 144 Wn.2d 516, 534
(2001), cert, denied, 535 U.S. 904 (2002).
The Department proved by clear and
convincing evidence that the Respondent committed
unprofessional conduct as defined in RCW
18.130.180(1), which states:
2.3

The commission of any act involving moral
turpitude, dishonesty, or corruption relating to
the practice of the person’s profession, whether
the act constitutes a crime or not. If the act
constitutes a crime, conviction in a criminal
proceeding is not a condition precedent to
disciplinary action. Upon such a conviction,
however, the judgment and sentence is
conclusive evidence at the ensuing disciplinary
hearing of the guilt of the license holder or
applicant of the crime described in the
indictment or information, and of the person’s
violation of the statute on which it is based. For
the purposes of this section, conviction includes
all instances in which a plea of guilty or nolo
contendere is the basis for the conviction and all
proceedings in which the sentence has been
deferred or suspended. Nothing in this section
abrogates rights guaranteed under chapter
9.96A RCW.
An act of moral turpitude is an act of “baseness,
vileness, or the depravity in private and social duties
which man owes to his fellow man.” In re Farina, 94
Wn. App. 441, 460 (1999). To relate to the practice of
the profession under RCW 18.130.180(1), the “conduct
must indicate unfitness to bear the responsibilities of,

App. 60
and enjoy the privileges of, the profession.” Holey v.
Medical Disciplinary Board, 117 Wn. 2d 720, 731
(1991). Conduct may indicate unfitness to practice the
profession if (1) it raises reasonable concerns that the
individual may abuse the status of the profession to
harm members of the public or (2) it lowers the
standing of the profession in the eyes of the public.
Haley v. Medical Disciplinary Board, 117 Wn. 2d at
733.
2.4
Here, the Respondent’s refusal to aid and
consult with fellow physicians, while acting as an oncall specialist, constitute acts of moral turpitude and
lowers the standing of the profession in the eyes of the
public.
2.5
The Department proved by clear and
convincing evidence that the Respondent committed
unprofessional conduct as defined in RCW
18.130.180(4), which states:
Incompetence, negligence, or malpractice which
results in injury to a patient or which creates an
unreasonable risk that a patient may be
harmed. The use of a nontraditional treatment
by itself shall not constitute unprofessional
conduct, provided that it does not result in
injury to a patient or create an unreasonable
risk that a patient may be harmed;
Here, the Respondent’s refusal to consult
with fellow physicians and treat patients, while acting
as an on-call specialist, created an unreasonable risk of
patient harm.
2.6

App. 61
The Department proved by clear and
convincing evidence that the Respondent committed
unprofessional conduct as defined in RCW
18.130.180(7), which states:
2.7

Violation of any state or federal statute or
administrative rule regulating the profession in
question, including any statute or rule defining
or establishing standards of patient care or
professional conduct or practice;
The Department proved bj? clear and
convincing evidence that the Respondent committed
unprofessional conduct as defined in EMTALA, 42 USC
Sec. 1395dd(d)(l)(B), which states:
2.8

(1) CIVIL MONEY PENALTIES
(B) Subject to subparagraph (C), any physician who
is responsible for the examination, treatment, or
transfer of an individual in a participating
hospital, including a physician on-call for the
care of such an individual, and who negligently
violates a requirement of this section, including
a physician who—
(i) signs a certification under subsection (c)(1)(A) of
this section that the medical benefits reasonably
to be expected from a transfer to another facility
outweigh the risks associated with the transfer,
if the physician knew or should have known that
the benefits did not outweigh the risks, or
(ii) misrepresents an individual’s condition or other
information, including a hospital’s obligations
under this section,

App. 62
is subject to a civil money penalty of not more
than $50,000 for each such violation and, if the
violation is gross and flagrant or is repeated, to
exclusion from participation in this subchapter
and State health care programs. The provisions
of section 1128A of this title (other than the first
and second sentences of subsection (a) and
subsection (b)) shall apply to a civil money
penalty and exclusion under this subparagraph
in the same manner as such provisions apply
with respect to a penalty, exclusion, or
proceeding under section 1128A(a).
Here, the Respondent violated EMTALA when he
failed to appear in the SJMC emergency department to
treat Patient C, white on call for SJMC as an ENT
specialist.
2.9 The Department did not prove by clear and
convincing evidence that the Respondent committed
unprofessional conduct as defined in EMTALA, 42 USC
Sec. 1395dd(g), which states:
(g) Nondiscrimination
A participating hospital that has specialized
capabilities or facilities (such as burn units,
shock-trauma units, neonatal intensive care
units, or (with respect to rural areas) regional
referral centers as identified by the Secretary in
regulation) shall not refuse to accept an
appropriate transfer of an individual who
requires such specialized capabilities or facilities
if the hospital has the capacity to treat the
individual.

App. 63
2.10 The Department requests three years of
probation, a CME course (preapproved by the
Commission), a 1,000 word research paper presented to
the local medical society or health organization,
personal appearances, and a $5,000 fine. The
Respondent requests that no violation be found and no
sanctions imposed.
2.11 Safeguarding the public’s health and safety
is the paramount responsibility of every disciplining
authority and in determining what action is
appropriate, the disciplining authority must first
consider what sanctions are necessary to protect or
compensate the public. See RCW 18.130.160. In doing
so, public safety must be considered before the
rehabilitation of the Respondent. Id.
2.12 The Respondent’s conduct falls in Tier B of
the Practice Below the Standard of Care schedule.
WAC 246-16-810. The panel considered the following
aggravating factors when determining the sanction in
this matter: none. The panel considered the following
mitigating factors when determining the sanction in
this matter: no prior discipline and issues remedied
and unlikely to reoccur.
III. ORDER
3.1
The Respondent’s license to practice as a
physician and surgeon in the state of Washington is
SUBJECT TO OVERSIGHT.
Oversight. The Respondent’s license to
practice as a Physician and surgeon in the state of
Washington shall be subject to oversight for a period of
two years from the effective date of this Order. The
3.2

App. 64
Respondent must complete the ethics course and
presentation of the paper in Paragraphs 3.6 and 3.7
below prior to filing a petition for termination. The
Commission will issue a notice scheduling a date and
time for the Respondent to appear, unless the
Commission waives the need for a personal
appearance.
3.3
Monitoring. The Respondent shall cause the
Chief of Surgery of the hospital where privileges are
held to submit quarterly reports attesting to the
Respondent’s good behavior. The reports will be due for
the duration of the oversight period commencing no
sooner than 90 days from the effective date of this
order.

3.4
Fine. The Respondent will pay a fine to the
Commission in the amount of $5,000 dollars within 6
months of the effective date of this order. The fine must
be paid by certified or cashier’s check or money order,
made payable to the Department of Health and mailed
to: Department of Health, Medical Quality Assurance
Commission, P.O. Box 1099, Olympia, Washington
98507-1099.
3.5
Personal Appearances. Respondent must
personalty appear at a date and location determined by
the Commission in approximately six (6) months after
the effective date of this Agreed Order, or as soon
thereafter as the Commission’s schedule permits.
Thereafter, Respondent must make personal
appearances annually or as frequently as the
Commission requires unless the Commission waives
the need for an appearance. Respondent must
participate in a brief telephone call with the

App. 65
Commission’s Compliance Unit prior to the
appearance. The purpose of appearances is to provide
meaningful oversight over Respondent’s compliance
with the requirements of this Agreed Order. The
Commission will provide reasonable notice of all
scheduled appearances.
Ethics Course. The Respondent must begin
an Ethics Course preapproved by the Commission
within 6 months and must successfully complete all
aspects of the program. Successful completion means
the Respondent must receive an unconditional pass at
the conclusion of the course. The Respondent must
submit to the Commission copies of any papers that he
is required to produce as part of the coursework and his
certificate of completion.
3.6

Paper. Research paper shall discuss InterProfessional Responsibility concerning EMTALA and
Physician Consults. The paper must be a minimum of
one thousand (1,000) words, contain a bibliography,
refer to any relevant CME completed in Paragraph 3.6,
and state how Respondent intends to apply what he
learned in his practice. The paper must be submitted
within two (2) months after completing the related
CME pursuant to Paragraph 3.6. Respondent should be
prepared to discuss the subject matter of the written
paper(s) with the Commission at the initial personal
appearance. The paper must be submitted to the
Commission in both electronic and printed format to
the addresses below:
3.7

1. Medical.comnliance@doh.wa.gov

App. 66
2. Compliance Officer
Medical Quality Assurance Commission
P.O. Box 47866
Olympia, Washington 98504-7866
Compliance Orientation. Respondent shall
complete a compliance orientation in person or by
telephone within sixty (60) days of the effective date of
this Agreed Order. Respondent must contact the
Compliance Unit at the Commission by calling (360)
236-2763, or by sending an email to:
Medical.compliance@doh.wa.gov within ten (10) days of
the effective date of this Agreed Order. Respondent
must provide a contact phone number where
Respondent can be reached for scheduling purposes.
3.8

3.9
Obey all laws. Respondent shall obey all
federal, state and local laws and all administrative
rules governing the practice of the profession in
Washington.
3.10 Compliance Costs. Respondent is responsible
for all costs that Respondent incurs in complying with
this Agreed Order.
3.11 Violation of Order. If Respondent violates any
provision of this Final Order in any respect, the
Commission may initiate further action against
Respondent’s license.
3.12 Change of Address. Respondent shall inform
the Commission and the Adjudicative Clerk Office in
writing, of changes in Respondent’s residential and for
business address within thirty (30) days of the change.

App. 67
3.13 Effective Date of Order. The effective date of
this Final Order is the date the Adjudicative Clerk
Office places the signed Final Order into the U.S. mail.
If required, Respondent shall not submit any fees or
compliance documents until after the effective date of
this Final Order.
3.14 Termination. Respondent may petition the
Commission in writing to terminate this Final Order
after two years.
Dated this 20 day of December, 2017.
Medical Quality Assurance Commission
/ s/

MARK JOHNSON, M.D.
Panel Chair
CLERK’S SUMMARY
Charge

Action

RCW 18.130.180(1)

Violated

RCW 18.130.180(4)

Violated

RCW 18.130.180(7)

Violated

EMTALA
42 USC § 1395dd(d)(l)(B)

Violated

42 USC § 1395dd(g)

Not Violated

App. 68
NOTICE TO PARTIES
This order is subject to the reporting requirements
of RCW 18.130.110, Section 1128E of the Social
Security Act, and any other applicable interstate or
national reporting requirements. If discipline is taken,
it must be reported to the Healthcare Integrity
Protection Data Bank.
Either party may file a petition for
reconsideration. RCW 34.05.461(3); 34.05.470. The
petition must be filed within 10 days of service of this
order with:
Adjudicative Service Unit
P.O. Box 47879
Olympia, WA 98504-7879
and a copy must be sent to:
Department of Health Medical Program
P.O. Box 47866
Olympia, WA 98504-7866
The petition must state the specific grounds for
reconsideration and what relief is requested. WAC
246-11-580. The petition is denied if the Commission
does not respond in writing within 20 days of the
filing of the petition.
A petition for judicial review must be filed and
served within 30 days after service of this order.
RCW 34.05.542. The procedures are identified in
chapter 34.05 RCW, Part V, Judicial Review and
Civil Enforcement. A petition for reconsideration is
not required before seeking judicial review. If a

App. 69
petition for reconsideration is filed, the above 30-day
period does not start until the petition is resolved.
RCW 34.05.470(3).
The order is in effect while a petition for
reconsideration or review is filed. “Filing” means
actual receipt of the document by the Adjudicative
Service Unit. RCW 34.05.010(6). This order is
“served” the day it is deposited in the United States
mail. RCW 34.05.010(19).
For more information, visit our website at:
http://www.doh.wa.gov/PublicHealthandHealthcareP
roviders/HealthcareProfessionsandFacilities/Hearing
s.aspx

App. 70

APPENDIX E
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
DIVISION ONE
Case No. 78910-4-1
[Filed: October 23, 2019]
HUNG DANG, M.D.,
Appellant,
v.

)
)
)
)
)
)
)

Judicial Review Agency Action of the
WASHINGTON STATE DEPARTMENT )
OF HEALTH, MEDICAL QUALITY
)
ASSURANCE COMMISSION,
)
Respondent.

)
)
.)

ORDER DENYING MOTION FOR
RECONSIDERATION
Appellant Dr. Hung Dang filed a motion for
reconsideration of the opinion filed on August 19,
2019. Respondent Washington State Department of
Health Medical Quality Assurance Commission filed
an answer to the motion. A majority of the panel has

App. 71 .
determined that the motion should be denied. Now.
therefore, it is hereby
ORDERED that the motion for reconsideration is
denied.
FOR THE COURT:
s/

Judge

App. 72

APPENDIX F
IN THE COURT OF APPEALS OF
THE STATE OF WASHINGTON
DIVISION ONE
Case No. 78910-4-1
[Filed: October 23, 2019]
HUNG DANG, M.D.,
Appellant,
v.
Judicial Review Agency Action of the
WASHINGTON STATE DEPARTMENT OF
HEALTH, MEDICAL QUALITY
ASSURANCE COMMISSION,
Respondent.

)
)
)
)
)
)
)

)
)
)
)
)

ORDER GRANTING MOTION TO PUBLISH
Appellant Dr. Hung Dang filed a motion to publish
the opinion filed on August 19, 2019. Respondent
Washington State Department of Health Medical
Quality Assurance Commission filed an answer to the
motion. A majority of the panel has determined that

App. 73
the motion should be granted. Now, therefore, it is
hereby
ORDERED that appellant’s motion to publish the
opinion is granted.
FOR THE COURT:
s/
Judge

App. 74

APPENDIX G
No. 97880-8
SUPREME COURT OF
THE STATE OF WASHINGTON
No. 78910-4
COURT OF APPEALS, DIVISION ONE
OF THE STATE OF WASHINGTON
[Filed: November 21, 2019]
HUNG DANG, MD,
Petitioner,
v.
WA STATE DEPARTMENT OF HEALTH
MEDICAL QUALITY ASSURANCE
COMMISSION,
Respondent.
PETITION FOR REVIEW

)
)
)
)
)
)
)

)
)
)
)
)
)

App. 75

[pp.14-15]
appeal. Decision 16. Yet. the COA went on to rule on
this “waived” issue. Even if this Court considers a 2page long argument not adequate to preserve this
issue, precedents and court rules for raising the issue
of jurisdiction for the first time on appeal exist.
Maynard Inv. Co.. Inc, v. McCann. 77 Wn.2d 616, 621,
465 P.2d 657 (1970).
“The ordinary rule that errors not raised
below will not be considered on appeal has been
treated as subject to an exception where the
matter raised for the first time on appeal was of
such a character as to render the judgment of
the lower court void, as where the court had no
jurisdiction of the subject matter.”/d at 621.
“Courts are created to ascertain the facts in a
controversy and to determine the rights of the
parties according to justice. Courts should not be
confined by the issues framed or theories
advanced by the parties if the parties ignore the
mandate of a statute or an established
precedent.’’hi at 623.
“The text of RAP 2.5(a) clearly delineates three
exceptions that allow an appeal as a matter of right.”
State v Blazina. 182 Wn.2d at 833. As such, even for
the first time on appeal, court rules and precedents
allowed me to raise the issue that MQAC lacks
EMTALA subject matter jurisdiction.

App. 76
2. Whether RCW 18.130.180(1) and (4) prohibit
a physician from exercising his or her
speech and independent medical opinion.
MQAC concluded that I violated RCW 18.130.180(1)
and (4) for my “refusal to aid and consult with fellow
physicians, while acting as an on-call specialist,
constitutes acts of moral turpitude and lowers the
standing of the profession in the eyes of the
public”(COL 2.3 and 2.4) and that my “refusal to
consult with fellow physicians and treat patients, while
acting as an on-call specialist, created an unreasonable
risk of patient harm” (COL 2.5 and 2.6). Yet, no
provision in the UDA mandates an on-call specialist to
automatically enter into a professional relationship
with and render his or her services to ER physicians
and patients without his or her consent or
consideration for his or her capabilities. The UDA,
chapter 18.130 RCW, does not prohibit an on-call
physician from exercising his or her speech and
independent medical judgment in deciding whom to
consult or treat, especially when that physician was
physically incapable and did not feel competent to take
care of a particular patient.
3. Whether it is a violation of the Due Process
Clause of the US Constitution and the
Washington Constitution Art. 1, § 10 for
MQAC to serve and amend its Final Order
beyond the statutory time limits of RCW
34.05.470(3) and .461(8)(a).
“Procedural due process imposes constraints on
governmental decisions which deprive individuals of
‘liberty’ or property’ interests within the meaning of

App. 77
the Due Process Clause of the Fifth or Fourteenth
Amendment.” Mathews v. Eldndge. 424 U.S. 319. 332.
96 S. Ct. 893, 47 L. Ed. 2d 18 (1976). A medical license
is a constitutionally protected property interest which
must be afforded due process.” Nguven v. Department
of Health Medical Quality Assurance Commission. 144
Wn.2d 516, 523, 29 P.3d 689 (2001). A physicians
license, professional

App. 78

APPENDIX H
COURT OF APPEALS, DIVISION ONE
OF THE STATE OF WASHINGTON
Case No. 78910-4
HUNG DANG, MD,
Pro Se Appellant
v.
WA STATE DEPARTMENT OF
HEALTH MEDICAL QUALITY
ASSURANCE COMMISSION,
Respondent

)
)
)
)
)
)
)
)
)
)
)
)
)

MOTION FOR RECONSIDERATION

[PP-3-4]
First, a clarification is needed for this Court’s
ruling, “We affirm the amended MQAC decision and
final order” because there are the MQAC’s Findings of
Fact, Conclusions of Law, and Final Order dated
September 29th, 2017 and the Amended Findings of
Fact, Conclusions of Law, and Final Order dated

App. 79
December 20th, 2017, as well as the Superior. Court’s
Order on Petition for Judicial Review dated August
9th, 2018. This Court needs to clarify which of these
three documents was or were referred to in this
unpublished opinion.
Second, this Court’s opinion in this case is not only
unprecedented but also raises serious constitutional
and legal issues because the Court has given MQAC
expansive legal authorities beyond those of RCW
18.130.050 and 'contrary to 42 U.S.C §1320a—7a.
Additionally, the decision conflicts with many of the
Supreme Court’s precedents. Therefore, I seek this
Court to reconsider its unpublished opinion.
A. The Uniform Disciplinary Act (UDA) Does
Not Prohibit an On-Call Physician from
Exercising His or Her Professional Speech
and Medical Judgement.
In its Findings of Fact, Conclusions of Law, and
Final Order, MQAC cited that I violated RCW
18.130.180(1), (4), and (7) for my “refusal to aid and
consult with fellow physician, while acting as an on-call
specialist”, “refusal to consult with fellow physicians
and treat patients, while acting as an on-call
specialist”, and “fail[ure] to appear in the SJMC 4
emergency department to treat patient C, while on call
for SJMC as an ENT specialist”. COL 2.3 to 2.8.
However, there is no language in the UDA prohibiting
an on-call specialist from exercising his or her medical
judgement and professional speech to refuse accepting
transfers or entering into a consensual professional
relationship with anyone based on his or her
professional and physical capacity. Nothing in the plain

App. 80
language of the UDA, chapter 18.130 RCW, mandates
an on-call specialist to offer his or her professional
services to everyone who asks, especially when he or
she did not feel capable at the time. As a matter of law,
such conclusions by MQAC have no legal basis. This
Court overlook this very important and critical matter
of law.
B. RAP 2.5(e) Permits a Claim of Lack of
MQAC Jurisdiction Over EMTALA to Be
Made for the First Time on Review.
“The text of RAP 2.5(a) clearly delineates three
exceptions that allow an appeal as a matter of right.”
State v. Blazina. 182 Wn.2d 827, at 833, 344 P.3d 680
(2015). Accordingly, even for the first time on appeal,
I am allowed to raise a claim that MQAC lacks
statutory authorization and subject matter jurisdiction
over EMTALA. “The ordinary rule that errors not
raised below will not be considered on appeal has been
treated as subject to an exception where the matter
raised for the first time on appeal was of such a
character as to render the judgment of the lower court
void, as where the court had no jurisdiction of the
subject matter.” Maynard Inv.

